October 28, 2002

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT:     Audit Report – New York Metro Area Trailer Acquisition – Safety and
             Length (Report Number TD-AR-03-001)

This report presents results from our audit of New York Metro Area Trailer Acquisition –
Safety and Length (Project Number 02YG019TD000). The report addresses
Congressional concerns related to the planned trailer replacement in the New York
Metro Area.

The report includes two recommendations to Postal Service management that we
believe will improve trailer safety and better define New York Metro Area trailer
operational needs. Management generally agreed with our recommendations and the
actions taken and planned should correct the issues identified in this report.
Management’s comments and our evaluation of these comments are included in the
report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment
cc: Richard J. Strasser, Jr.
    Patrick R. Donahoe
    John A. Rapp
    Michael F. Spates
    Susan M. Duchek
New York Metro Area Trailer Acquisition –                                            TD-AR-03-001
 Safety and Length




                                             Background
In March 2002, Postal Service officials in the New York Metro Area requested that
headquarters replace over 1,800 old 40-foot leased trailers, with 1,500 newer and
longer trailers. The officials stated that the age of the old 40-foot trailers caused them to
require more maintenance and made them unsafe. The lease contractor disagreed.




                    Leased trailers parked at a New York Metro Area mail facility.



They stated they had refurbished many of the old trailers, and consequently, the old
trailers were safe and serviceable. Postal Service officials countered that in addition to
the safety issue, the extra capacity of longer trailers was needed to handle mail volume.
The lease contractor again disagreed. They stated existing 40-foot trailers were rarely
full, and the shorter length was needed to handle constrained urban areas. On
March 27, 2002, the Office of Inspector General (OIG) received a congressional request
asking the OIG to compare 40-foot trailers with their proposed longer replacements.
This audit report is the second in a series of reports. The purpose is to notify Postal
Service officials of our observations concerning:

    •   Trailer age
    •   Safety and maintenance
    •   Trailer length




                                                       1
                                            Restricted Information
New York Metro Area Trailer Acquisition –                                                                     TD-AR-03-001
 Safety and Length


                                                          Results
Trailer Age – The New York Metro Area leases approximately 2,500 trailers, not
including trailers temporarily leased for seasonal or emergency use. About
1,800 trailers are provided under eight leases by two contractors. The 40-foot trailers
average about 25 years in age—compared with the balance of the fleet, which averages
less than 6 years.
                                                        40-Foot Trailers – Average Age – About 25 Years
                                                        All Other Trailers – Average Age – Less than 6 Years

              900


              800


              700


              600
 Number
of Trailers   500


              400


               300


               200

               100

                    0
                        0-4 YEARS
                                    5-9 YEARS
                                             10-14 YEARS
                                                       15-19 YEARS
                                                                 20-24 YEARS
                                                                           25-29 YEARS
                                            Trailer Age                              30-34 YEARS
                                                                                                35-39 YEARS

                              Age of 40-foot trailers versus the balance of the fleet.
Our analysis of Postal Service data from April 4 through May 1, 2002, indicated there
was a correlation between trailer age and condition. Although 40-foot trailers, which
average more than 25 years in age, represent only 55 percent of the fleet, they
accounted for more than 77 percent of the trailers that were out of service for repair.
                                              TRAILERS
                                      OUT OF SERVICE FOR REPAIR

                                                                                              BALANCE
                                                                                              OF FLEET
                                       40-FOOT                                                23 PERCENT
                                          TRAILERS – 77 PERCENT




                                                                2
                                                     Restricted Information
New York Metro Area Trailer Acquisition –                                                     TD-AR-03-001
 Safety and Length




Safety and Maintenance – The existing 40-foot fleet is not maintained in accordance
with federal or contract safety standards. The lease contracts establish the following
minimum service requirements:


    •   Semiannual preventative maintenance -
        Inspect, and if warranted, repair or
        replace tires, support systems,
        undercarriage, frame, brakes, bearings,
        trailer body, lights, reflectors, and
        lubrication.

    •   Annual preventative maintenance –
        Remove wheels, clean bearings,
        inspect and align axles, and inspect
        brake parts and drums.

    •   Record Retention – Document and
        retain maintenance and repair records
        for a period of 2 years after lease
        contract expiration.

Our review revealed required service was not
performed and consequently, preventative
                                                                                 (Above)
maintenance was not accomplished. In                           The shredded tire cap on this leased
addition, maintenance and repair documents                     trailer is an out of service deficiency.
were not recorded or retained. These                           Photograph taken at New Jersey
deficiencies resulted because contract                         International Bulk Mail Center May 1,
maintenance requirements were not enforced.                    2002.




Specifically, New York and contractor officials we spoke to stated that trailers did not
receive preventative maintenance as required, and were repaired only as a result of
breakdowns or other immediate deficiencies. In addition, the New York Metro Area
transportation manager stated that he did not enforce the full service maintenance
program required by the lease contracts. Since maintenance and repair activities were
not performed as required, many trailers had deficiencies, which made them unsafe—
and should have kept them out of service.




                                                       3
                                            Restricted Information
New York Metro Area Trailer Acquisition –                                                  TD-AR-03-001
 Safety and Length




  “Out of service deficiencies” are
defined as deficiencies, which preclude
use of the trailer until such time as the
deficiency is corrected. Based on the
inspection performed by vehicle
maintenance facility mechanics, of the
trailers we statistically selected, we
projected that:

    •   More than 92 percent of
        Contractor A’s trailers had out of
        service deficiencies.


    •   More than 82 percent of
        Contractor B’s trailers had out of              The broken frame on this leased trailer is
        service deficiencies.                           an out of service deficiency. Photograph
                                                        taken at the New Jersey International Bulk
                                                        Mail Center May 1, 2002.

    •   More than 89 percent of
        Contractor B’s un-refurbished
        trailers had out of service
        deficiencies.


    •   29 percent of Contractor B’s
        refurbished trailers had expired
        federal inspection stickers.


    •   30 percent of Contractor B’s un-
        refurbished trailers had expired
        federal inspection stickers.
                                                      The rusted and damaged frame on this leased
                                                      trailer is an out of service deficiency.
                                                      Photograph taken at the New Jersey
                                                      International Bulk Mail Center May 1, 2002.




                                                       4
                                            Restricted Information
New York Metro Area Trailer Acquisition –                                                     TD-AR-03-001
 Safety and Length



    •   All of Contractor A’s trailers
        had current federal safety
        inspection stickers even
        though more than 92 percent
        had out of service
        deficiencies.

Trailer Length – Our review of
trailer length requirements in the
New York Metro Area revealed that:

    •   Postal Service management
        did not establish or justify a
        need to increase the length
        of existing 40-foot trailers or
        replace the existing 40-foot
        fleet with longer trailers.

    •   There is a need for some
        40-foot trailers to handle                       The worn tire on this leased trailer is an
                                                         out of service deficiency. Photograph
        certain conditions in certain                    taken at New Jersey International Bulk
        urban areas.                                     Mail Center May 1, 2002.



Load Capacity – Postal Service managers we spoke to stated that 45-foot trailers were
needed to provide more capacity and reduce unscheduled extra trips. However, our
analysis of New York Metro Area trailer density data for January 1 through April 17,
2002, revealed that 40-foot trailers averaged only 65 percent capacity, and only
35 percent of trips made by 40-foot trailers were completely full. Consequently, our
analysis indicated the added capacity of longer trailers may not be needed.

Industry Standard – Postal Service managers stated that 45 and 53-foot trailers were
the industry standard. However, our discussions with trailer manufacturers and
distributors revealed there was no specific industry length standard. The discussions
revealed most customers preferred 53-foot trailers, but that generally, the cost to
manufacture or purchase a 40-foot trailer was slightly cheaper. The discussions also
revealed that cost varied more on factors like optional equipment or design—not length.

Regulatory Constraints – Our discussion with New York Metro Area managers and our
review of New York City traffic regulations revealed that although there were no specific
restrictions on trailer length, total combined tractor trailer vehicle length could not
exceed 55 feet. Consequently, with the appropriate tractor, 45-foot trailers can be
properly operated within New York City—however, 53-foot trailers can not.




                                                       5
                                            Restricted Information
New York Metro Area Trailer Acquisition –                                                 TD-AR-03-001
 Safety and Length


Maneuverability – Our
observations of operations
at Postal Service facilities in
New York City, and our
discussions with tractor
trailer drivers, revealed that
although 45-foot trailers
could generally be operated
safely in New York City,
there is a need for some
40-foot trailers to
accommodate some
constrained urban areas.
For example, as illustrated
on the right, a 45-foot trailer
parked at the James A.
Farley facility in Manhattan,
extends into the street, and
puts pedestrians and traffic
at greater risk than the
40-foot trailers parked next
to it.                                       Leased 40-foot and 45-foot trailers parked at the
                                                 James A. Farley building in Manhattan.

Recommendations

We recommend the vice president, New York Metro Area Operations:

        1. Require contracting officers to enforce compliance with federal and lease
           contract safety and maintenance requirements.


Management’s Comments

Management agreed with our findings and recommendations. Management stated they
would issue a memorandum to all trailer lease contractors reasserting all contractual
safety and maintenance requirements, and advise all contractors that noncompliance
with safety and maintenance requirements would result in appropriate administrative
action. They pointed out that they had previously removed some unsafe trailers from
the fleet in accordance with memoranda they published in September 2000 and
February 2001, and stated that they would continue to enforce all federal and lease
contract safety requirements. Management’s comments, in their entirety, are included
in Appendix C of this report.




                                                       6
                                            Restricted Information
New York Metro Area Trailer Acquisition –                                      TD-AR-03-001
 Safety and Length


Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. We originally made
two recommendations in the draft report, which were combined into one
recommendation in the final report. We believe management’s actions taken or planned
should correct the issues identified in the report.

Recommendation

We also recommend the vice president, New York Metro Area Operations:

        2. Properly analyze the operational requirement for trailers of varying lengths
           before submitting an acquisition request to Postal Service Headquarters.

Management’s Comments

Management agreed with our recommendation. They stated that they would reanalyze
the operational requirement for trailers of various length. However management
disagreed with our conclusion that longer trailers may not be needed.

Evaluation of Management’s Comments

Since management agreed to conduct a business reanalysis of the need for trailers of
varying lengths, management’s comments are responsive to the recommendation. Our
conclusion regarding the need for longer trailers was made in the context of the New
York Metro Areas request to Postal Service Headquarters. We believe their request
should have fully analyzed the requirement for longer trailers. It did not. Consequently,
the request did not provide a reasonable basis for the conclusion that longer trailers
were needed.




                                                       7
                                            Restricted Information
New York Metro Area Trailer Acquisition                                          TD-AR-03-001
 Safety and Length



         APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of the audit was to determine whether the proposed acquisition would
provide operational or financial benefit to the Postal Service. The purpose of this report
is to notify Postal Service officials of observations we made regarding the age and
safety of the existing 40-foot fleet, as well as the stated need to acquire longer trailers.

During our work we interviewed Postal Service officials at headquarters and in the
New York Metro Area. We visited Postal Service facilities, interviewed Postal Service
employees and contract drivers; observed and photographed operations; and analyzed
lease contract terms, including safety and maintenance requirements. We reviewed
New York City traffic regulations; reviewed Title 49, Code of Federal Regulations,
Section 396 “Inspection, Repair and Maintenance,” and interviewed representatives
from the Department of Transportation.

We also statistically selected for inspection, trailers present in the yard of the
New Jersey International Bulk Mail Center on April 30, 2002, and May 1, 2002. The
randomly selected trailers include trailers that had been refurbished, and those that had
not. The sample design allowed us to statistically project the number of trailers having
one or more conditions affecting roadworthiness and the presence of expired inspection
stickers. We requested mechanics from the New York Metro Area vehicle maintenance
facility to inspect the trailers in accordance with federal and lease contract safety
standards, and we observed their inspection. Finally we interviewed representatives
from various trailer manufactures and distributors as well as representatives from
trucking industry trade organizations.

Work associated with this report was conducted from April through October 2002 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as were considered necessary under the circumstances. We
discussed our findings with appropriate management officials, and included their
comments, where appropriate.




                                                     8
                                          Restricted Information
New York Metro Area Trailer Acquisition                                               TD-AR-03-001
 Safety and Length


                      APPENDIX B. PRIOR AUDIT COVERAGE
Our report, Safety and Security of the Postal Service Leased Trailer Fleet
(TR-AR-01-002), dated March 30, 2001, involved a statistical sample, randomly
selected from a universe of 74 contracts and 8,715 trailers, inspected at 28 locations
nationwide. We projected that 25 percent—or almost 2,200 of the 8,715 trailers—did
not meet minimum federal safety standards, including such deficiencies as bald tires,
damaged or missing lights, reflectors, mud flaps, doors, load restraint systems, and
bumpers. We also found that 1,515 trailers—or more than 68 percent of the trailers we
projected as failing safety standards—did not have current safety inspections. In
addition, many had missing or incomplete inspection, repair, and maintenance records.
We made three recommendations to management to address the safety issues we
identified in our report. Management agreed with all of our recommendations.

Our report, Leased Trailer Deficiencies in the New York Metro Area (TR-MA-01-001),
dated March 30, 2001, identified deficiencies we noted while visiting the New York
Metro Area to inspect the statistically selected trailers included in the national audit




                Leased trailers in unsafe, substandard condition photographed, at a
                        New York Metro Area mail facility in October 2000.



referenced above. The trailers we observed were not within our randomly selected
statistical sample. However, because the trailers appeared to be old and in
substandard condition, we conducted a limited inquiry. Government auditing standards
require that auditors report, in writing, all significant instances of noncompliance found
in conjunction with an audit. In addition, it is the OIG’s practice to immediately advise


                                                     9
                                          Restricted Information
New York Metro Area Trailer Acquisition –                                    TD-AR-03-001
 Safety and Length


management of significant deficiencies we observe, particularly if they involve health or
safety issues. In response to our inquiry, the contractor was unable to provide
maintenance history files or safety compliance records as required by the contract. Our
advisory suggested that management require the contractor to meet contract provisions
regarding safety, maintenance, and appearance; and that if the provisions were not met,
consider contract cancellation. Management agreed with all of our suggestions.

Our report, New York Metro Area Trailer Acquisition Requirements (TD-MA-02-003),
dated July 10, 2002, examined the draft purchase plan the New York Metro Area
submitted to Postal Service Headquarters in March 2002. The advisory reported that
the New York Metro Area did not properly analyze or document trailer requirements or
their underlying operational need before submitting their acquisition request to Postal
Service Headquarters. We made two recommendations to management to address the
issues we identified in our report. Management agreed with both of our
recommendations.




                                                      10
                                            Restricted Information
New York Metro Area Trailer Acquisition                            TD-AR-03-001
 Safety and Length


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                    11
                                          Restricted Information
New York Metro Area Trailer Acquisition –                            TD-AR-03-001
 Safety and Length




                                                      12
                                            Restricted Information
New York Metro Area Trailer Acquisition –                            TD-AR-03-001
 Safety and Length




                                                      13
                                            Restricted Information
New York Metro Area Trailer Acquisition –                            TD-AR-03-001
 Safety and Length




                                                      14
                                            Restricted Information
New York Metro Area Trailer Acquisition –                            TD-AR-03-001
 Safety and Length




                                                      15
                                            Restricted Information
New York Metro Area Trailer Acquisition –                            TD-AR-03-001
 Safety and Length




                                                      16
                                            Restricted Information
